MARCH 14, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




NASA’S COMPLIANCE WITH THE IMPROPER PAYMENTS
   INFORMATION ACT FOR FISCAL YEAR 2012




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-011 (ASSIGNMENT NO. A-13-003-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

AFR          Agency Financial Report
Caltech      California Institute of Technology
DCAA         Defense Contract Audit Agency
FFRDC        Federally Funded Research and Development Center
FY           Fiscal Year
GAO          Government Accountability Office
IPERA        Improper Payments Elimination and Recovery Act of 2010
IPIA         Improper Payments Information Act of 2002
JPL          Jet Propulsion Laboratory
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
PAR          Performance and Accountability Report


                                                                 REPORT NO. IG-13-011
MARCH 14, 2013




                                                                                            OVERVIEW

          NASA’S COMPLIANCE WITH THE IMPROPER PAYMENTS
             INFORMATION ACT FOR FISCAL YEAR 2012
                                                                                              The Issue

  Each year, the Federal Government wastes billions of taxpayer dollars on improper
  payments to individuals, organizations, and contractors. An improper payment is any
  payment that should not have been made; was made in an incorrect amount, to an
  ineligible recipient, for ineligible goods or services, or for goods or services not received;
  was duplicative; did not reflect credit for applicable discounts; or lacked adequate
  supporting documentation.1 Federal agencies estimated making approximately $108
  billion in improper payments in fiscal year (FY) 2012, a decrease from the FY 2011
  estimate of $115 billion. 2

  Congress passed the Improper Payments Information Act of 2002 (IPIA) to address the
  identification, estimation, and reduction of improper payments. IPIA requires the heads
  of Federal agencies annually to: 1) identify programs and activities susceptible to
  improper payments; 2) estimate the amount of improper payments; and 3) report these
  estimates and planned actions to reduce improper payments in programs with estimates
  greater than $10 million and that exceed a specific percentage of disbursements. The
  Improper Payments Elimination and Recovery Act of 2010 (IPERA) amended IPIA by
  expanding requirements for programs and activities vulnerable to significant improper
  payments and broadening recovery requirements.3 In addition, IPERA requires
  Inspectors General to determine whether their respective agencies comply with IPIA
  requirements and to evaluate the accuracy and completeness of agencies’ reporting and
  performance in reducing and recapturing improper payments.

  The Office of Management and Budget (OMB) has designated 13 programs as “high-
  error” or “high-priority” for improper payments.4 Of the $108 billion in estimated
  improper payments reported in FY 2012, $101 billion are attributable to these 13



  1
      OMB Memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C of OMB Circular
      A-123,” April 14, 2011
  2
      http://paymentaccuracy.gov/ (accessed February 20, 2013)
  3
      From this point forward, the term “IPIA” will be used to refer to IPIA as amended by IPERA.
  4
      The high-error programs are those programs that reported roughly $750 million or more in improper
      payments in a given year, did not report an error amount in the current reporting year but previously
      reported an error amount over the threshold, or have not yet established a program error rate and have
      measured components that were above the threshold.


REPORT NO. IG-13-011
                                                                                                     OVERVIEW



     programs. None of these programs, many of which are benefit entitlement programs
     administered at the state level, are funded by NASA. 5

     Last year, the NASA Office of Inspector General (OIG) issued its first report on NASA’s
     improper payment and recapture audit efforts. We found that NASA complied with the
     requirements of IPIA, but noted areas for improvement and made nine recommendations
     to improve NASA’s methodology for identifying susceptible programs; testing for,
     estimating, and reporting improper payments; and recapture audit efforts.6

     In its FY 2012 Agency Financial Report (AFR), NASA identified ten programs, covering
     $11.96 billion in FY 2011 disbursements, as susceptible to improper payments.7 NASA
     tested a statistically valid sample of disbursements from those programs and found no
     improper payments. Additionally, NASA performed payment recapture testing of
     FY 2010 disbursements on fixed price contracts. Of the $4.25 billion subject to review,
     NASA identified only $7,335 in overpayments, $3,525 of which it recouped.

     In this audit, we examined whether NASA complied with the requirements of IPIA. In
     addition, we evaluated the completeness and accuracy of the Agency’s IPIA reporting, its
     performance in reducing and recapturing improper payments, and its implementation of
     our prior recommendations. Details of the audit’s scope and methodology are in
     Appendix A.

     Results

     We determined in our review of the FY 2012 AFR and supporting documentation that
     NASA complied with IPIA. However, we also identified opportunities for improvement
     in NASA’s methodology for its IPIA and recapture audit programs, as well as its annual
     reporting. With regard to our prior recommendations, NASA is in the process of
     implementing corrective action to address four and has taken action we consider
     responsive to the other five.

     Although NASA now includes payments it makes to grantees and the Jet Propulsion
     Laboratory (JPL) in its IPIA review, the Agency continues to exclude payments made by
     JPL to vendors and sub-recipients. Further, NASA may have inaccurately assessed and
     assigned risk to certain programs due to incomplete data, a heavy reliance on materiality,
     and subjective assignment of risk by the IPIA contractor. In addition, while NASA
     conducted recapture audits, NASA excluded from coverage cost-type contracts, grants,
     and cooperative agreements, and accordingly the audits were limited to 35 percent of the

     5
         The Departments of Health and Human Services, Treasury, Labor, Agriculture, Education, and Housing
         and Urban Development, and the Social Security Administration fund the 13 high-risk programs. State-
         administered programs account for about a third of the improper payments made by these programs.
     6
         NASA Office of Inspector General, “NASA’s Efforts to Identify, Report, and Recapture Improper
         Payments” (IG-12-015, May 1, 2012).
     7
         http://www.nasa.gov/pdf/707292main_FY12_AFR_121412_FINALv508.pdf (accessed February 22,
         2013)



ii                                                                                     REPORT NO. IG-13-011
OVERVIEW



  Agency’s total disbursements. As a result, the Agency may be missing an opportunity to
  identify and recover a larger population of improper payments. Finally, we also
  identified errors and omissions in NASA’s AFR that lead us to question whether NASA’s
  reporting efforts are accurate and complete.

  Although improper payments identified through NASA’s IPIA testing and recapture audit
  efforts have been historically low, the actual amount of improper payments the Agency
  makes may be higher than reported given the issues we identified. However, because
  NASA does not fund benefit entitlement or state-administered programs, we believe it is
  not likely this figure would qualify as “significant” under OMB guidelines.8 Further, the
  results of NASA’s FY 2012 financial statement audit did not disclose any material
  weaknesses in the Agency’s internal controls related to procurement or disbursement
  functions.9

                                                                              Management Action

  To improve NASA’s IPIA and recapture audit programs, NASA should continue to
  implement corrective actions in response to our prior recommendations related to
  NASA’s risk assessment process, inclusion of payments made by JPL in IPIA testing,
  and inclusion of grants and cost-type contracts in recovery audit efforts. To improve the
  reporting in its AFR, we recommended that NASA’s Chief Financial Officer establish a
  process to collect the data necessary to complete reporting requirements on the
  disposition of recaptured funds, as well as refine the existing process to gather the data
  necessary to report instances in which overpayments are recaptured outside of the
  recapture audit process. We also recommended that the Chief Financial Officer develop
  and disseminate guidance on the reporting requirements to all parties who participate in
  the collection and preparation of the tables to ensure the information reported complies
  with applicable OMB requirements.

  In response to a draft of this report, the Chief Financial Officer concurred with our
  recommendations to establish a process to collect data related to reporting on the
  disposition of recaptured funds, refine the existing process related to the reporting of
  overpayments recaptured outside of the recapture audit process, and develop and
  disseminate guidance on these processes.

  We consider management’s comments to be responsive. Accordingly, we are resolving
  the recommendations and will close them upon verification they have been completed.
  Management’s response is reprinted in Appendix B.


  8
      Significant improper payments are gross annual improper payments in a program exceeding (1) both
      2.5 percent of program outlays and $10 million of all program or activity payments during the fiscal year
      reported or (2) $100 million regardless of the improper payment error rate.
  9
      A material weakness is a deficiency, or combination of deficiencies, in internal control such that there is
      a reasonable possibility that a material misstatement of the entity's financial statements will not be
      prevented or detected and corrected on a timely basis.



REPORT NO. IG-13-011                                                                                                iii
MARCH 14, 2013




                                                        CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

  RESULTS
      NASA Complied with IPIA in FY 2012 ______________________ 5
      Improvements Needed in NASA’s IPIA Program _____________ 6
      Improvements Needed in NASA’s Recapture Audit Program ____ 9
      Improvements Needed in NASA’s Annual Reporting of IPIA and
        Recapture Audit Efforts ____________________________ 12

  APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls ____________________________ 16
      Prior Coverage ______________________________________ 16

  APPENDIX B
      Management Comments ______________________________ 18

  APPENDIX C
      Report Distribution___________________________________ 20




REPORT NO. IG-13-011
MARCH 14, 2013




                                                                                     INTRODUCTION


Background

  The Improper Payments Information Act (IPIA) was passed in November 2002 to
  enhance the accuracy and integrity of Federal payments. IPIA requires heads of
  Executive Branch agencies to review all agency programs and activities annually and
  identify programs that may be susceptible to significant improper payments.10 For each
  program and activity identified as susceptible, agencies must estimate the annual amount
  of improper payments and report those estimates to Congress. They are also required to
  report actions to reduce improper payments for any program in which the estimate
  exceeds $10 million. The Act also requires the Director of the Office of Management
  and Budget (OMB) to prescribe implementing guidance for agencies.

  As defined by OMB, an improper payment is “any payment that should not have been
  made or that was made in an incorrect amount under statutory, contractual,
  administrative, or other legally applicable requirements.”11 Improper payments may take
  the form of payments to an ineligible recipient or for ineligible goods or services,
  duplicate payments, payments in the incorrect amount, or payments that lacked adequate
  supporting documentation and may result from inadequate recordkeeping, inaccurate
  eligibility determinations, inadvertent processing errors, lack of timely and reliable
  information to confirm payment accuracy, or fraud.

  Fiscal year (FY) 2012 marked the ninth year of IPIA implementation and the second year
  of implementation of the Improper Payments Elimination and Recovery Act of 2010
  (IPERA). IPERA amends IPIA by expanding the requirements for identifying,
  estimating, and reporting on programs and activities susceptible to significant improper
  payments. IPERA also includes a requirement that, when cost-effective, agencies
  conduct recapture audits for each program and activity with at least $1 million in annual
  program outlays. 12

  According to OMB, compliance with IPIA means that an agency has:

         ·   published a Performance and Accountability Report (PAR) or Agency Financial
             Report (AFR) for the most recent fiscal year and posted that report and any
             accompanying required materials on its website;

  10
       Significant improper payments are gross annual improper payments in a program exceeding (1) both
       2.5 percent of program outlays and $10 million of all program or activity payments during the fiscal year
       reported or (2) $100 million regardless of the improper payment error rate.
  11
       OMB Memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C of OMB Circular
       A-123,” April 14, 2011
  12
       From this point forward, the term “IPIA” will be used to refer to IPIA as amended by IPERA.



REPORT NO. IG-13-011                                                                                               1
                                                                                              INTRODUCTION



           ·   conducted a program-specific risk assessment for each program or activity;

           ·   published improper payment estimates for all programs and activities identified as
               susceptible to significant improper payments;

           ·   published programmatic corrective action plans in the PAR or AFR;

           ·   published, and has met, annual reduction targets for each program assessed to be
               at risk and measured for improper payments;

           ·   reported a gross improper payment rate of less than 10 percent for each program
               and activity for which an improper payment estimate was obtained and published
               in the PAR or AFR; and

           ·   reported information on its efforts to recapture improper payments.13

    Additionally, OMB guidance directs Inspectors General to:

           ·   evaluate the accuracy and completeness of agency reporting and agency
               performance in reducing and recapturing improper payments, and

           ·   evaluate and report on agency efforts to prevent and reduce improper payments
               and report any recommendations for improving those efforts.

    Office of Inspector General Review of NASA’s FY 2011 Compliance with IPIA. Last
    year, the Office of Inspector General (OIG) issued its first report on NASA’s efforts to
    comply with IPIA. 14 For its FY 2011 PAR, NASA tested seven programs and reported
    an improper payment estimate of $1.5 million in one of those programs. Further, NASA
    reported it had identified no recoverable funds as a result of its recapture audit efforts.
    The OIG found that NASA complied with the requirements of IPIA, but noted a number
    of areas for improvement and made recommendations to management for corrective
    action.

    Overall, we found that NASA limited the scope of its IPIA efforts, which in turn
    minimized the Agency’s ability to identify, report on, and recapture improper payments.
    In response to our report, NASA agreed to analyze and modify its IPIA methodology,
    increase the scope of its testing, improve its reporting process, and analyze the scope of
    its recapture audit efforts. We considered the nine recommendations resolved and agreed
    to close them once corrective actions were completed and verified.



    13
         OMB Memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C of OMB Circular
         A-123,” April 14, 2011
    14
         NASA Office of Inspector General, “NASA’s Efforts to Identify, Report, and Recapture Improper
         Payments” (IG-12-015, May 1, 2012).



2                                                                                     REPORT NO. IG-13-011
INTRODUCTION



  NASA’s FY 2012 IPIA Reporting Process. NASA began its FY 2012 IPIA process by
  querying its financial management system for all FY 2011 disbursements. NASA
  provided this information to the IPIA contractor who segregated the data by mission,
  ultimately identifying 143 programs within 9 mission areas.15 With the approval of the
  Office of the Chief Financial Officer (OCFO) Quality Assurance Division, the contractor
  removed 2 OIG programs, combined 27 other programs into a single program labeled
  “Institutions and Management,” and combined 7 other programs into a single program
  labeled “Education,” bringing the list to a total of 109 programs. All programs with more
  than $80 million in disbursements during the fiscal year were subject to further
  assessment.16 NASA reported that 44 programs met this threshold.

  In performing the risk assessment, the IPIA contractor considered factors consistent with
  OMB guidance, including the control environment, internal and external monitoring,
  programmatic and human capital factors, and the materiality of expenditures. Based on
  this information, the IPIA contractor assigned an overall risk rating to each of the 44
  programs and identified 10 programs as susceptible to significant improper payments:

         ·   Center Management and Operations

         ·   Institutions and Management

         ·   International Space Station

         ·   James Webb Space Telescope

         ·   Mars Exploration

         ·   Multipurpose Crew Vehicle

         ·   Reimbursable-Science Mission Directorate Programmatic

         ·   Space Communications and Navigation

         ·   Space Launch System

         ·   Space Shuttle

  The IPIA contractor developed a sample from vendor payments, grant drawdowns, letter
  of credit contracts, government purchase card transactions, and travel expenditures for

  15
       Aeronautics Research Mission Directorate, Cross Agency Support Programs, Construction and
       Environmental Compliance Restoration, Education, Exploration Systems Mission Directorate,
       Institutions and Management, Office of Inspector General, Science Mission Directorate, and Space
       Operations Mission Directorate.
  16
       This $80 million threshold assumes an improper payment error rate of 12.5 percent, which could
       potentially lead to $10 million in improper payments, which OMB guidance established as the threshold
       for significant improper payments.



REPORT NO. IG-13-011                                                                                           3
                                                                                   INTRODUCTION



    each of the 10 programs. Unlike in the previous year, NASA included grant transactions
    in its improper payments review. Additionally, NASA reviewed letter of credit
    transactions, the bulk of which are contract payments to the Jet Propulsion Laboratory
    (JPL). The IPIA contractor identified no improper payments in the 10 programs.

    In addition, NASA contracted with a company to perform recapture audits on all fixed-
    price contract payments. The auditor contacted vendors to identify whether their records
    indicated funds due to NASA and tested all payments made on fixed-price contracts
    during the fiscal year to identify duplicate payments, overpayments, or payments to the
    wrong vendor. To initiate the audit, NASA provided the recapture auditor with a listing
    of all non-voided invoices for FY 2010, which totaled $12.1 billion. The recapture
    auditor then selected for testing those invoices reflecting payments associated with fixed-
    price contracts, which totaled $4.2 billion. From this subset of invoices, the recapture
    auditor identified two overpayments totaling $7,335, of which NASA recovered $3,525.

Objectives

    Our audit objective was to determine whether NASA has complied with the requirements
    of IPIA. In addition, we evaluated the completeness and accuracy of NASA’s reporting
    of IPIA data, its performance in reducing and recapturing improper payments, and its
    implementation of the recommendations made in our prior year report. We also reviewed
    internal controls related to the overall objective. See Appendix A for details of the
    audit’s scope and methodology, our review of internal controls, and a list of prior
    coverage.




4                                                                          REPORT NO. IG-13-011
RESULTS




                                 NASA COMPLIED WITH IPIA IN FY 2012

          Based on our review of NASA’s FY 2012 AFR, website, and risk assessments, we
          concluded that NASA complied with IPIA for FY 2012.

Compliance with IPIA

  The IPIA and OMB guidance set forth seven criteria agencies must meet to comply with
  the statute. As indicated in Table 1 below, NASA met all applicable criteria for FY 2012.

                               Table 1. IPIA Compliance Summary

                               Criteria for Compliance                                            Criteria
                                                                                                   Met?


  Published the FY 2012 AFR and posted it on NASA’s website                                          Yes

  Conducted program-specific risk assessments                                                        Yes


  Published improper payment estimates for all programs and                                          Yes
  activities identified as susceptible to significant improper
  payments under its risk assessment


  Published programmatic corrective action plans in the AFR                                         N/A

  Published and met annual reduction targets for each program
                                                                                                    N/A
  assessed to be at risk and measured for improper payments


  Reported a gross improper payment rate of less than 10 percent                                     Yes
  for each program/activity for which an improper payment
  estimate was obtained and published in the AFR


  Reported information on its efforts to recapture improper                                          Yes
  payments



  N/A – The criteria is not applicable, as NASA did not report improper payments that exceeded 2.5 percent
  of program payments and $10 million or $100 million regardless of percentage.



REPORT NO. IG-13-011                                                                                         5
                                                                                           RESULTS




                                IMPROVEMENTS NEEDED IN NASA’S IPIA
                                                          PROGRAM

           Although we concluded that NASA complied with IPIA, we identified two areas for
           improvement in its improper payment testing. First, we are concerned that NASA’s
           method for evaluating the level of risk in its programs was applied inconsistently
           across programs and that the Agency’s reliance on materiality and the IPIA
           contractor’s judgments may have skewed the risk assessment. Second, the Agency
           continues to exclude payments made by JPL from its risk assessment process. As
           noted in Table 2 below, NASA implemented sufficient corrective actions to identify
           programs potentially susceptible to improper payments and expanded the scope of its
           testing to include payments made by NASA to JPL and Agency grantees.
           Accordingly, we consider our prior recommendations related to these issues closed.
           NASA continues to address our prior recommendations related to risk assessments
           for its IPIA testing as well as inclusion of payments made by JPL.

Inconsistent Execution of NASA’s Risk Assessment

    NASA’s risk assessment process may not be accurately identifying and appropriately
    measuring risk. Specifically, risk may have been inaccurately assessed and assigned to
    certain programs as a result of incomplete data, a heavy reliance on materiality, and
    subjective assignment of risk by the IPIA contractor. We believe that these factors
    increase the potential that NASA is not accurately identifying or appropriately and
    consistently measuring risk across its programs and activities. If risk is not appropriately
    assessed, programs may be inappropriately excluded from testing and, consequently,
    improper payments not identified and reported.

    The IPIA contractor performed a risk assessment for each NASA program or activity
    exceeding a materiality threshold of $80 million in disbursements. As part of this
    assessment, the IPIA contractor considered such factors as the control environment,
    programmatic risks, materiality of program disbursements, and human capital risks, and
    used this information to assign risk-rating scores to each of the programs. However, the
    IPIA contractor did not solicit input from program managers or other Agency personnel
    who may have knowledge relevant to risk ratings. For example, human resources
    personnel may be able to provide data on topics such as employee turnover in the
    program or average tenure. Similarly, procurement personnel may have data on whether
    the program’s contracts or grants have been subject to external audit and the results of
    such audits.

    In addition, we found inconsistencies in how the IPIA contractor assigned risk ratings.
    We noted instances in which the IPIA contractor rated risk factors for which the program
    manager had provided no information a “1” (low), while in other programs such factors
    were rated a “5” (high). We also found that despite identical risk rating descriptions, one



6                                                                           REPORT NO. IG-13-011
RESULTS



  program had a rating of “1” while another program had a rating of “5.” Consistent with
  the prior year’s process, the IPIA contractor considered the materiality of the program
  when evaluating other risk factors and therefore, if no other information was provided,
  one program could be rated differently than another program. However, IPIA states that
  materiality is only one factor in a risk assessment process. By incorporating materiality
  into the determination of other risk factors, the IPIA contractor may be amplifying its
  effect on a program’s overall assessment of risk.

  OIG communicated these same concerns about NASA’s risk assessment process in our
  prior audit.17 OCFO representatives told us that NASA’s entire approach to risk
  assessment is under review and that refinements should be complete by the end of the
  next reporting cycle.

Exclusion of the Jet Propulsion Laboratory

  JPL is a federally funded research and development center (FFRDC) operated for NASA
  by the California Institute of Technology (Caltech). FFRDCs enable agencies to use
  private sector resources to accomplish tasks that are integral to the mission and operation
  of the sponsoring agency that cannot be met with normal contractor resources. As such,
  FFRDCs have access to government resources beyond what is common in the normal
  contractual relationship and are expected to operate in the public interest and fully
  disclose their affairs to the sponsoring Agency. JPL received $1.6 billion from NASA in
  FY 2011 and was the second largest recipient of Agency funds. In response to one of our
  previous recommendations, payments made by NASA to JPL were included in NASA’s
  improper payment testing in FY 2012. However, the Agency continues to exclude
  payments made by JPL to vendors and others on behalf of NASA.

  OMB defines a payment as any payment derived from Federal funds or other Federal
  sources; ultimately reimbursed from Federal funds or resources; or made by a Federal
  agency, a Federal contractor, or a governmental or other organization administering a
  Federal program or activity. This definition includes Federal awards subject to OMB
  Circular No. A-133, “Audits of States, Local Governments and Non-Profit
  Organizations,” that are expended by both recipients and sub-recipients.

  Because Caltech administers JPL as a Federal program or activity and JPL’s operation is
  analogous to other NASA Centers, in our view payments by Caltech to subcontractors
  meet OMB’s definition. In line with OMB guidance, payments are only proper when
  made for eligible goods and services under the provisions of a contract, grant, lease,
  cooperative agreement, or other funding mechanism. In addition, JPL is subject to the
  Single Audit Act requiring A-133 audits that include reviews of disbursements past the
  primary recipient.18 Between FYs 2007 and 2010, these A-133 audits of JPL were

  17
       NASA Office of Inspector General, “NASA’s Efforts to Identify, Report, and Recapture Improper
       Payments” (IG-12-015, May 1, 2012).
  18
       Public Law 104-156, Single Audit Act Amendments of 1996.



REPORT NO. IG-13-011                                                                                   7
                                                                                       RESULTS



    conducted by an external contractor and the Defense Contract Audit Agency (DCAA)
    and identified approximately $18 million in questioned costs. While questioned costs are
    not necessarily improper payments and A-133 audits are not specifically designed to
    identify such payments, these audits highlight weaknesses that could lead to improper
    payments at JPL. By excluding payments made by JPL from its IPIA review, NASA
    may not be identifying all improper payments.

Status of Prior Year Recommendations

              Table 2. Status of Prior Year Recommendations – IPIA Program

    Report and
    Recommendation Recommendation                                                Status
    Number

    IG12015             Develop a methodology to identify programs and           Closed
                        activities that does not inappropriately mask improper
    Rec 1               payments.

    IG12015             Require that NASA program managers provide               In progress
                        updated and accurate program information to allow
    Rec 2               for the performance of a comprehensive risk
                        assessment.

    IG12015             Include JPL in NASA’s IPIA review and assess the         In progress
                        risk of improper payments by and to JPL consistent
    Rec 3               with the methodology used for other NASA
                        programs.

    IG12015             Increase the scope of the Agency’s IPIA testing to       Closed
                        include grants.
    Rec 4



NASA’s Chief Financial Officer is taking corrective action to address the recommendations
we made in our prior year IPIA report relating to these issues. Accordingly, we did not
make any additional recommendations relating to these issues in this year’s report.




8                                                                        REPORT NO. IG-13-011
RESULTS




                         IMPROVEMENTS NEEDED IN NASA’S RECAPTURE
                                                  AUDIT PROGRAM

             We determined that NASA continued to limit its annual recapture audits to fixed-
             price contracts, thereby excluding from testing a substantial portion of expenditures
             related to cost-type contracts, grants, and cooperative agreements. Accordingly,
             NASA may be missing an opportunity to identify and recover improper payments.
             As noted in Table 3 below, NASA is taking corrective action to address our prior
             recommendations related to this issue.

Scope of NASA’s Recapture Efforts Limited

  In its FY 2012 AFR, NASA reported identifying $7,335 in improper payments and
  recovering $3,525 through recapture audits. We are concerned that NASA is unduly
  restricting the scope of its recapture audits and therefore not identifying potential
  improper payments. Specifically, by limiting recapture audits to fixed-price contract
  payments, only $4.2 billion or 35 percent of the Agency’s total procurement expenditures
  in FY 2010 were subject to audit. In addition, by only including fixed-priced contracts,
  which typically provide the lowest risk of improper payments because they are generally
  not subject to fluctuations in contractor costs, NASA has increased the risk that improper
  payments may go undetected.

  Exclusion of Grants and Cooperative Agreements. In FY 2010, NASA disbursed
  almost $49 million in grants and cooperative agreements. By failing to test these
  disbursements, NASA excluded payments with a history of internal control weaknesses.
  In September 2011, the NASA OIG reported that NASA does not have an adequate
  system of controls in place to ensure proper administration and management of its grant
  program and, as a result, some grant funds are not being used for their intended
  purposes.19 The OIG also reported that NASA did not provide adequate oversight of
  grantee performance and expenditures and awarded unauthorized and unallowable grant
  supplements contrary to Federal and NASA regulations. The existence of these internal
  control weaknesses was substantiated by our audits of three specific grants in FY 2012.20
  The exclusion of grants and cooperative agreements increases the risk that improper
  payments may go undetected by NASA.

  OMB guidance stipulates that when agencies determine certain programs and activities
  should be excluded from recapture audit testing because doing so would not be cost-
  effective, the agency shall report the program and activities and provide a description of

  19
       NASA OIG, “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011).
  20
       NASA OIG, “Audit of NASA Grants Awarded to The Alabama Science Center Exhibit Commission’s
       U.S. Space and Rocket Center” (IG-12-016, June 22, 2012); “Audit of NASA Grants Awarded to the
       Philadelphia College Opportunity Resources for Education” (IG-12-018, July 26, 2012); and “Audit of
       NASA Grant Awarded to the HudsonAlpha Institute for Biotechnology” (IG-12-019, August 3, 2012).



REPORT NO. IG-13-011                                                                                         9
                                                                                            RESULTS



     the justification and analysis used to make such a determination. NASA did not include
     this information in its FY 2012 AFR.

     NASA concurred with our prior recommendation to analyze the feasibility of including
     grants and cooperative agreements in its recapture audit efforts and is in the process of
     implementing corrective action.

     Exclusion of Cost-Type Contracts. NASA asserts that because DCAA audits
     contractors who do business with NASA and focuses its efforts primarily on cost-type
     contracts, inclusion of such contracts in its recapture audit services would be duplicative
     and therefore not cost-effective. Nevertheless, in response to our prior recommendation
     NASA agreed to reconsider whether cost-type contracts should be included in its
     recapture audit efforts and the Agency is continuing to analyze this issue.

     OMB guidance specifically differentiates recapture audits from post-award audits.
     Specifically, OMB defines a payment recapture audit as the review and analysis of an
     agency or program’s accounting and financial records, supporting documentation, and
     other pertinent information supporting its payments that is specifically designed to
     identify overpayments. Further, a payment recapture audit is not an audit in the
     traditional sense but rather a detective and corrective control activity designed to identify
     and recapture overpayments.

     In contrast, a post-award audit is defined as an examination of the accounting and
     financial records of a payment recipient and such audits are normally performed to
     determine if amounts claimed by the recipient are in compliance with the terms of the
     award or contract and applicable laws and regulations.21 Accordingly, we believe that the
     purpose of a payment recapture audit and a post-award audit are different and while both
     may identify improper payments, they will not necessarily identify the same types of
     improper payments. For example, because the post-award audits performed by DCAA
     focus on the accounting and financial records of the contractor versus NASA’s
     accounting and financial records, a post-award audit may not identify a duplicate
     payment made to the contractor by NASA.




     21
          DCAA classifies incurred-cost audits as post-award contract audits.



10                                                                              REPORT NO. IG-13-011
RESULTS



Status of Prior Year Recommendations

      Table 3. Status of Prior Year Recommendations – Recapture Audit Program

  Report and
  Recommendation Recommendation                                                 Status
  Number

  IG12015              Analyze and document the feasibility of expanding        In progress
                       the scope of the Agency’s recapture audits beyond
  Rec 8                fixed-price contracts to include other payments such
                       as grants and cooperative agreements.

  IG12015              Reconsider including cost-type contract payments in      In progress
                       the Agency’s recapture audit efforts and document
  Rec 9                any determinations made.



NASA’s Chief Financial Officer agreed with and is taking corrective action to address the
recommendations relating to recapture audit efforts we made in our prior year IPIA report.
Accordingly, we did not make any additional recommendations relating to these issues in
this report.




REPORT NO. IG-13-011                                                                          11
                                                                                                    RESULTS




                                 IMPROVEMENTS NEEDED IN NASA’S ANNUAL
                                 REPORTING OF IPIA AND RECAPTURE AUDIT
                                                               EFFORTS

                To comply with IPIA, agencies must publish an AFR each fiscal year and post that
                report on its website. Although NASA met these requirements with the publication
                of its FY 2012 AFR, we noted two errors that affect the accuracy and completeness
                of the information reported. While we reported similar issues for FY 2011, the
                issues noted in the FY 2012 AFR affected different figures and the reasons for the
                errors were not the same. As noted in Table 4 below, NASA took sufficient
                corrective actions to resolve each of the inaccurate and incomplete issues noted in
                our FY 2011 report, and thus we consider our prior year recommendations closed.

Inaccuracies in NASA’s Annual Reporting

     Although NASA published an AFR for the most recent fiscal year and posted that report
     on its website, we noted two errors that affect the accuracy and completeness of the
     information the Agency reported. Specifically, we noted errors in NASA’s reporting of
     the disposition of recaptured funds and of overpayments recaptured from other sources.

     Inaccurate Reporting of the Disposition of Recaptured Funds. OMB guidance
     requires certain information regarding improper payments and the recapture of such
     improper payments be included in the agencies annual PAR or AFR.22 One of the
     required tables is the “Disposition of Recaptured Funds,” which details how the
     recaptured funds were used. Funds may be used in a variety of ways depending on the
     circumstances. For example, funds may be available to reimburse the agency for actual
     expenses incurred for the administration of the program, pay contractors for payment
     recapture audit services, or used for their original purposes.

     NASA reported in its FY 2012 AFR that it had recaptured $3,525 but did not report how
     it used the funds in its “Disposition of Recaptured Funds” table. Instead, NASA reported
     the amount paid to its payment recapture auditor and annotated that its administrative
     costs were estimated to be marginal so the amount had not been accumulated. The
     remaining columns in the table were completed with zeros. OCFO representatives
     confirmed that they misunderstood the information required to be reported in this table.

     Inaccurate Reporting of Overpayments Recaptured from Other Sources. OMB
     requires agencies to report on improper payments identified and recovered through
     sources other than payment recapture audits. Examples of other sources include
     statistical testing under IPIA; agency post-payment reviews or audits; OIG reviews,
     audits, and investigations; and Single Audit reports.

     22
          OMB Circular No. A-136, “Financial Reporting Requirements,” August 3, 2012.



12                                                                                      REPORT NO. IG-13-011
RESULTS



  NASA included the “Overpayments Recaptured Outside of Payment Recapture Audits”
  table in its FY 2012 AFR. However, similar to its FY 2011 PAR, NASA populated this
  table with either a not applicable response or zeros. In FY 2011, NASA informed us that
  it did not have sufficient time to report this information because this was a new reporting
  requirement and the information was not readily available. For the FY 2012 reporting
  period, NASA OCFO indicated that it requested this information from the finance offices
  at the various NASA facilities and received negative responses.

  While we did not attempt to identify all possible amounts recaptured in FY 2012, using
  our own resources we identified at least three potential amounts that NASA could have
  reported. One of these potential amounts resulted from an OIG investigation and the
  other two resulted from management decisions on questioned costs identified as the result
  of Single Audits. Further, DCAA audits of NASA contractors are another potential
  source of amounts for recapture. Even though we did not identify any specific examples,
  DCAA reported that over $20 million in questioned costs covering multiple years of
  activity were agreed to in FY 2012 after negotiations between the contractors and the
  Government contracting officer with cognizant responsibility (e.g., the Defense Contract
  Management Agency and NASA). We recognize that all questioned costs may not
  equate to overpayments; however, these audits may be another source of recaptured funds
  NASA did not report. An example of questioned costs that may also be recaptured funds
  in this area would be direct costs inappropriately charged and subsequently repaid or
  offset against future billings.

Status of Prior Year Recommendations

              Table 4. Status of Prior Year Recommendations - Reporting

  Report and
  Recommendation Recommendation                                                  Status
  Number

  IG12015              Report improper payment estimates for all programs        Closed
                       identified as susceptible to improper payments or
  Rec 5                request relief from the annual reporting requirement.

  IG12015              Evaluate the current process for reviewing the IPIA       Closed
                       contractor’s results and develop a process to ensure
  Rec 6                that information reported in the PAR is correct and
                       based on appropriate supporting documentation.

  IG12015              Include all required tables and data in the IPIA section Closed
                       of the PAR.
  Rec 7




REPORT NO. IG-13-011                                                                            13
                                                                                       RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

In order to improve the accuracy and completeness of the Agency’s reporting of its IPIA and
recapture audit program efforts, we made the following recommendations to the Chief
Financial Officer.

Recommendation 1. Establish a process to collect the data necessary to complete the
“Disposition of Recaptured Funds” table.

     Management’s Response. The Chief Financial Officer concurred with the
     recommendation and agreed to implement the process by the end of FY 2013.

     Evaluation of Management’s Response. Management’s comments are responsive;
     therefore, the recommendation is resolved and will be closed upon verification and
     completion of the proposed corrective actions.

Recommendation 2. Refine its existing process to collect the data necessary to complete
the “Overpayments Recaptured Outside of Payment Recapture Audits” table.

     Management’s Response. The Chief Financial Officer concurred and stated that the
     process will be refined by the end of FY 2013.

     Evaluation of Management’s Response. Management’s comments are responsive;
     therefore, the recommendation is resolved and will be closed upon verification and
     completion of the proposed corrective actions.

Recommendation 3. Develop and disseminate guidance to all parties who participate in the
collection and preparation of the required tables to instruct the parties on the data needed,
the potential sources of the data, and from whom it should be collected to ensure that the
information reported complies with OMB Circular A-123, Appendix C and OMB Circular
A-136.

     Management’s Response. The Chief Financial Officer concurred with the
     recommendation and stated that the guidance will be developed and disseminated by
     June 30, 2013.

     Evaluation of Management’s Response. Management’s comments are responsive;
     therefore, the recommendation is resolved and will be closed upon verification and
     completion of the proposed corrective actions.




14                                                                       REPORT NO. IG-13-011
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from October 2012 through February 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  To determine whether NASA complied with IPIA, we reviewed applicable laws and
  regulations and interviewed OCFO personnel and the responsible contractor personnel at
  the two external firms contracted to conduct the IPIA testing and recapture audits on
  NASA’s behalf. We reviewed the IPIA contractor’s work papers and its final reports.
  We randomly selected 45 disbursements tested by the IPIA contractor and re-performed
  the contractor’s testing procedures. We also reviewed the IPIA section, including the
  part on recapture audits, of the AFR and supporting documentation. Based on our
  reviews and interviews, we determined whether NASA complied with the requirements
  of IPIA and evaluated the completeness and accuracy of NASA’s reporting of IPIA data,
  its performance in reducing and recapturing improper payments, and its implementation
  of recommendations made by the OIG in its May 2012 improper payments audit report.

  Federal Laws, Regulations, Policies, and Guidance. We reviewed the following in the
  course of our audit work:

      ·   Public Law 111-204, Improper Payments Elimination and Recovery Act of 2010
          (IPERA)

      ·   Public Law 107-300, Improper Payments Information Act of 2002 (IPIA)

      ·   Public Law 104-156, Single Audit Act Amendments of 1996

      ·   Executive Order 13520, “Reducing Improper Payments and Eliminating Waste in
          Federal Programs,” November 2009

      ·   OMB Circular No. A-136, “Financial Reporting Requirements,” August 3, 2012

      ·   OMB Memorandum M-12-11, “Reducing Improper Payments through the ‘Do
          Not Pay List’” April 12, 2012

      ·   OMB Memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C
          of OMB Circular A-123,” April 14, 2011


REPORT NO. IG-13-011                                                                          15
                                                                                     APPENDIX A



        ·   OMB Memorandum M-11-04, “Increasing Efforts to Recapture Improper
            Payments by Intensifying and Expanding Payment Recapture Audits,”
            November 16, 2010

        ·   OMB Memorandum M-10-13, “Issuance of Part III to OMB Circular A-123,
            Appendix C,” March 22, 2010

        ·   NASA Procedural Requirements (NPR) 9010.3, “Financial Management Internal
            Control,” September 30, 2008

        ·   NPR 9050.4, “Cash Management and Improper Payments,” September 30, 2008

     Use of Computer-Processed Data. We used computer-processed data that was
     extracted from NASA’s accounting system of the FY 2011 and FY 2010 disbursements
     that was used by NASA’s IPIA and recapture audit contractors, respectively. Although
     we did not independently verify the reliability of all this information, we compared it
     with other available supporting documents to determine data consistency and
     reasonableness. From these efforts, we believe the information we obtained is
     sufficiently reliable for this report.

Review of Internal Controls

     We reviewed and evaluated the internal controls associated with NASA’s sampling,
     testing, and reporting of improper payment information and the Agency’s efforts to
     reduce and recapture improper payments. We found internal control deficiencies as
     discussed in this report. Our recommendations, if implemented, should correct the
     deficiencies we identified.

Prior Coverage

     During the last 5 years, the NASA OIG and GAO have issued numerous reports of
     particular relevance to the subject of this report. Unrestricted reports can be accessed
     over the Internet at http://oig.nasa.gov/audits/reports/FY13/index.html (NASA OIG) and
     http://www.gao.gov (GAO).

     NASA Office of Inspector General

     “Audit of NASA Grant Awarded to the HudsonAlpha Institute for Biotechnology” (IG-
     12-019, August 3, 2012)

     “Audit of NASA Grants Awarded to the Philadelphia College Opportunity Resources for
     Education” (IG-12-018, July 26, 2012)

     “Audit of NASA Grants Awarded to The Alabama Science Center Exhibit Commission’s
     U.S. Space and Rocket Center” (IG-12-016, June 22, 2012)



16                                                                        REPORT NO. IG-13-011
APPENDIX A

  “NASA’s Efforts to Identify, Report, and Recapture Improper Payments” (IG-12-015,
  May 1, 2012)

  “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011)

  Government Accountability Office

  “Improper Payments: Remaining Challenges and Strategies for Governmentwide
  Reduction Efforts” (GAO-12-573T, March 28, 2012)

  “Improper Payments: Moving Forward with Governmentwide Reduction Strategies”
  (GAO-12-405T, February 7, 2012)

  “Improper Payments: Recent Efforts to Address Improper Payments and Remaining
  Challenges” (GAO-11-575T, April 15, 2011)

  “Improper Payments: Status of Fiscal Year 2010 Federal Improper Payments Reporting”
  (GAO-11-443R, March 25, 2011)

  “Improper Payments: Progress Made But Challenges Remain in Estimating and Reducing
  Improper Payments” (GAO-09-628T, April 22, 2009)

  “Improper Payments: Status of Agencies’ Efforts to Address Improper Payment and
  Recovery Auditing Requirements” (GAO-08-438T, January 31, 2008)

  “Improper Payments: Federal Executive Branch Agencies’ Fiscal Year 2007 Improper
  Payment Estimate Reporting” (GAO-08-377R, January 23, 2008)

  “Improper Payments: Weaknesses in USAID’s and NASA’s Implementation of the
  Improper Payments Information Act and Recovery Auditing” (GAO-08-77, November 9,
  2007)




REPORT NO. IG-13-011                                                                    17
                       APPENDIX B




     MANAGEMENT COMMENTS




18            REPORT NO. IG-13-011
APPENDIX B




REPORT NO. IG-13-011   19
                                                                               APPENDIX C




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Associate Administrator
     Chief of Staff
     Chief Financial Officer
     NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Financial Management and Assurance
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




20                                                                    REPORT NO. IG-13-011
Major Contributors to the Report:
   Mark Jenson, Director, Financial Management Directorate
   Regina Dull, Project Manager
   Aleisha Fisher, Auditor
   Eugene Bauer, Auditor




REPORT NO. IG-13-011                                         21
                                                                                      MARCH 14, 2013
                                                                        REPORT No. IG-13-011




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
